     Investigative Report of the 

U.S. Park Police’s Response During a

    Missing-Person Investigation





       Date Posted to Web: October 23, 2014




      This is a version of the report prepared for public release.
                                          SYNOPSIS

The National Park Service (NPS) asked the Office of Inspector General (OIG) to investigate the
actions the U.S. Park Police (USPP) took in response to a May 2013 incident in which 83-year­
old Victoria M. Kong went missing from Ronald Reagan National Airport. USPP assisted the
Metropolitan Washington Airport Authority (MWAA) Police Department in the search for Ms.
Kong, who was ultimately found dead in a wooded area of Gravelly Point Park, less than a mile
from airport property.

NPS requested this investigation after its executives learned that a USPP shift commander made
inappropriate, insensitive comments about Ms. Kong during recorded telephone conversations
with a USPP communications sergeant. The NPS executives believed that the shift commander’s
remarks raised concerns about the sufficiency of USPP’s response during the search.

Our investigation revealed that during the telephone conversations, the shift commander
described Ms. Kong as a “9,000-year-old Alzheimer’s woman” and said that she probably “went
into the fucking river.” During his interview with OIG investigators, the shift commander
admitted that his comments were “crass” and explained that he had been frustrated due to
staffing shortages on his shift.

Despite the shift commander’s remarks, we found that USPP’s assistance to MWAA during the
search complied with USPP’s policies and procedures. During our investigation, however, we
noted that information about the case was not always effectively communicated within USPP.
We also found that the policy governing USPP’s response to missing-person incidents does not
clearly define USPP’s role when assisting another law enforcement agency in a search.

We provided this report to the Director of NPS for any action he deemed appropriate. In its
response to the report, NPS informed us that administrative action has been taken against the
shift commander, and new policies have been implemented to address the issues we raised
(Attachment 1).

                              DETAILS OF INVESTIGATION

On June 6, 2013, Margaret “Peggy” O’Dell, Deputy Director of Operations, National Park
Service (NPS), U.S. Department of the Interior, asked the Office of Inspector General to
investigate the actions of the U.S. Park Police (USPP) in response to the disappearance and
subsequent death of Ms. Victoria M. Kong in May 2013. NPS requested this investigation after
officials discovered that a USPP shift commander made insensitive comments about the missing
woman.




                                                                                                 1
Friday, May 3, 2013: Ms. Kong Goes Missing

Ms. Victoria Kong, age 83, of Gaithersburg, MD, arrived at Ronald Reagan National Airport
(DCA) on an American Airlines flight from Miami, FL, at 4:00 p.m. 1 Airport security video
shows Ms. Kong, who was traveling alone and who had reportedly begun to show signs of
dementia, exiting the plane, walking to the baggage claim area, and later wandering through the
terminal and out of the airport by herself.

At approximately 6:00 p.m., family members who had come to DCA to pick Ms. Kong up
contacted Metropolitan Washington Airport Authority (MWAA) police at the terminal. Efforts to
locate her began, but she had already left the airport. At around 11:00 p.m., MWAA police
initiated an official missing-person report for Ms. Kong.

Saturday, May 4, Through the Morning of Monday, May 6, 2013: USPP Assists MWAA in
Search for Ms. Kong

USPP Notified of Ms. Kong’s Disappearance

At 2:18 a.m. on May 4, MWAA police telephoned USPP Communications and informed them
that Ms. Kong had gone missing from DCA. In response, USPP put out a “Be on the Lookout”
notice for Ms. Kong to its street patrols.

MWAA police contacted USPP again at 3:42 a.m. and told the communications sergeant on duty
that airport security cameras had recorded footage of Ms. Kong walking along the Mt. Vernon
Trail, a bicycle path that runs beside George Washington Parkway, at approximately 6:30 p.m.
the day before. (Although the security cameras recorded Ms. Kong’s movements while she was
on airport property, MWAA did not review the recordings until several hours later.) She was
heading toward Gravelly Point Park, just north of DCA. Gravelly Point is NPS property and falls
within USPP’s jurisdiction; USPP District 2 has patrol responsibility for this area.

We interviewed this communications sergeant, who told us he had USPP dispatchers broadcast
Ms. Kong’s information to the street patrols, especially to the officers in District 2. He said he
also contacted the District 2 patrol supervisor, and gave him the information.

USPP subsequently dispatched patrols to Gravelly Point to search for Ms. Kong. During their
interviews, two USPP officers explained that they searched the trail, the area from Gravelly Point
to the Memorial Bridge, and Theodore Roosevelt Island. One of the officers noted that they
conducted their searches mostly in their patrol cars, using their “takedown lights, alley lights,
spotlights, [and] headlights” to improve visibility, but also searched the wooded areas on foot
using flashlights.

The USPP communications sergeant told us that he also briefed the shift commander on duty at
the time about the incident. He explained that it was dark outside when the initial MWAA calls
came in, so he did not believe USPP would take much action; rather, he said, he understood from


1
    See pp. 8 and 9 of this report for a full timeline of case events.



                                                                                                     2
the shift commander’s comments that the shift commander would pass the information about the
incident on to the next shift commander.

Shift Commander’s Remarks About Ms. Kong

At 3:45 and 4:04 a.m. on May 4, the communications sergeant and the shift commander spoke by
telephone about whether MWAA or USPP should handle the incident. During one of these
conversations, the shift commander said of Ms. Kong: “You know if it’s a frickin’ 9,000-year­
old Alzheimer’s woman, she frickin’ went into the fucking river. You know that.” The shift
commander also said that he would prefer to “punt this [case] over” to MWAA and expressed
concern that MWAA was trying to “kick this over to us.”

During an interview with the shift commander, we played him the recordings of his
conversations with the communications sergeant. The shift commander admitted his comments
about Ms. Kong were “crass.” He explained that he was “extremely short on manpower” at the
time and was frustrated over “trying to deal with a challenging situation that wasn’t ours.” He
also told us that around the end of May 2013 his law enforcement authority was suspended
because USPP wanted to review his overall response to the incident.

We interviewed the then-USPP chief of police and three members of her executive team about
the decision to place the shift commander on administrative duty. The chief, who retired in
December 2013, told us that when she listened to the recordings, she was “aghast” at the shift
commander’s comments about Mrs. Kong’s disappearance. She and her team decided that due to
potential criminal charges, they should relieve the shift commander of his law enforcement
powers, remove him from his position, and ask the U.S. Attorney’s Office to review the matter.

On May 31, 2013, the U.S. Attorney’s Office for the Eastern District of Virginia reviewed the
recorded conversations at USPP’s request and found no evidence of criminal wrongdoing by the
shift commander.

USPP’s Efforts To Assist MWAA in the 3-Day Search for Ms. Kong

At 4:24 a.m. on May 4, the shift commander informed the communications sergeant that MWAA
had assumed primary responsibility for the missing-person case, with USPP and other agencies
assisting as needed. The shift commander explained to us that MWAA police told him that
MWAA was taking the lead on the case, and that he told them to “let us know what we can . . .
do to help.” He also told us he had conducted a drive-through search of Gravelly Point and the
airport property himself, although he could not recall details.

The shift commander described passing on information about the incident to the next shift
commander, who would be relieving him at 6:00 a.m. on May 4. He felt that more searches
would take place at that time because the MWAA police and its assisting agencies would have
the benefit of the daylight hours. He said that before he ended his shift that day, he obtained a
photograph of Ms. Kong from the MWAA police, enhanced it, and passed it on to the next shift
commander.




                                                                                                    3
We interviewed a second USPP communications sergeant, who told us that the communications
sergeant briefed him about Ms. Kong at about 6:00 a.m. on May 4. The second communications
sergeant told us that he understood that the USPP street units from District 2 were aware of the
missing-person incident and were assisting the MWAA police by conducting routine searches of
areas in their jurisdiction that were adjacent to the airport. He could not provide specific details
of USPP’s search activities during his shift but said that if units were at a location conducting a
search they would normally call the Communications Section and provide their location for
“officer safety” purposes.

We also reviewed approximately 900 hours of recorded communications obtained from multiple
USPP telephone lines and radio frequency channels. These recordings indicated that between
May 4 and 6, USPP officers conducted searches of Gravelly Point, Theodore Roosevelt Island,
and other areas during their routine patrols.

We interviewed the MWAA chief of police and several MWAA police officers about the
cooperative efforts between MWAA and USPP in the search for Ms. Kong. The MWAA police
chief told us his department wanted to keep possession of the case since Ms. Kong had gone
missing from MWAA’s jurisdiction and his officers felt a responsibility to make every effort to
find her. All of the MWAA officers we interviewed who had interacted with USPP officers,
including the shift commander, were satisfied with the level of cooperation and assistance USPP
provided.

Search Location Changed; Use of USPP Helicopter During Search

During the afternoon of Sunday, May 5, police dogs from the Fairfax County Police Department
tracked what appeared to be Ms. Kong’s scent to Theodore Roosevelt Island, approximately
2.5 miles north of DCA (see Figure 1 on p. 5). USPP officers provided access security and
coordination at Roosevelt Island during subsequent searches conducted by MWAA SWAT
teams, dogs, and other search-and-rescue teams.

At about 10:00 p.m. on May 5, a USPP helicopter with forward-looking infrared capability
searched Roosevelt Island for Ms. Kong. Officers from the USPP Aviation Unit who assisted in
the search told us that the unit received the search request from the MWAA police that same day.
The Aviation Unit did not receive a request for, and therefore did not conduct, a search of
Gravelly Point.

When the helicopter went up, Ms. Kong had been missing more than 48 hours. We asked the
shift commander why he had not requested a helicopter during the early morning hours of May
4, when he was initially involved in the incident. He told us that he did not believe the use of
helicopters had occurred to him, but added that if the MWAA police had requested an aerial
search for Ms. Kong, he would have contacted the Aviation Unit and requested assistance.




                                                                                                   4
    Theodore
 Roosevelt Island




                                                                                                     Gravelly
                                                                                                    Point Park



                                                                                                  Reagan
                                                                                              National Airport


Figure 1. Map showing Theodore Roosevelt Island, Gravelly Point, and the northernmost tip of DCA

property. Source: Google.


Interviews of the other USPP shift commanders who were on duty between May 4 and 6
revealed some confusion about requesting assistance from the Aviation Unit. One of the other
shift commanders, for example, believed that USPP’s helicopters had been grounded at the time
of Ms. Kong’s disappearance due to a USPP furlough; this commander did not think helicopters
would be called in to assist in a missing-person investigation anyway. Another shift commander
was aware that a USPP helicopter had been used to assist in the search for Ms. Kong, but could
not remember if she had been the one who requested it. The USPP missing-person policy does
not address the use of aviation support in situations where USPP is assisting another agency in a
search.




                                                                                                           5
Afternoon of Monday, May 6: Ms. Kong’s Body Is Found

At around 1:40 p.m., a volunteer search-and-rescue team located Ms. Kong’s body in a heavily
wooded area of Gravelly Point Park (see Figure 2). She was lying at the base of an embankment,
about 30 feet from the trail she had followed from the airport.

USPP assumed primary responsibility for the investigation into Ms. Kong’s death. The
investigation concluded that her death was accidental.




Figure 2. Map showing the approximate location of Ms. Kong’s body. Source: Google.




                                                                                             6
Issues Noted During Our Investigation

Although we found that USPP followed its policies and procedures as it assisted MWAA in the
search for Ms. Kong, we noted two issues during our investigative work. We discovered that
information about Ms. Kong was not always communicated effectively within USPP during the
search, and that USPP’s missing-person policy does not clearly define USPP’s responsibilities in
cases where USPP is assisting another law enforcement agency in a search.

Information Was Not Always Effectively Communicated Within USPP During the Search

USPP has seven shift commanders, who are responsible for supervising the daily activities of
USPP Districts 1 through 5 as well as specialized units. These commanders report to the USPP
watch commander. We interviewed the watch commander and the shift commanders who were
on duty between May 4 and 6, 2013. All described being notified by the “off-going” shift
commanders about the incident and the assistance USPP was providing to the MWAA police.

We also interviewed several USPP officers from District 2 to determine their level of
involvement in the search for Ms. Kong. The officers told us they conducted various types of
searches for Ms. Kong, both in and out of their vehicles, during their shifts between May 4 and 6.
Most of the officers told us their actions were consistent with past missing-person searches in
which they had participated.

Officers acknowledged that Ms. Kong’s information should have been communicated to new
shifts during roll call since it was an ongoing missing-person case. Some officers told us,
however, that they could not recall if any information regarding Ms. Kong had been passed along
to them from the prior shift. We were told that, in general, information would occasionally not be
passed from one shift to the next and that it would “just kind of float around” and officers only
looked at it if they had a chance to do so. One District 2 officer told us he knew nothing of
USPP’s involvement in the search for Ms. Kong until he discovered a missing-person flyer lying
on a table in the District 2 roll call room. This officer told us he did not know what agency had
prepared the flyer and said no information about Ms. Kong was shared during roll call. He said
he made a mental note of the information on the flyer and proceeded to his patrol area. He also
said that he was later detailed to assist the MWAA police during the search.

During our review of the recorded USPP communications between May 3 and 6, we found
several instances in which USPP communications sergeants and dispatchers were not fully aware
of information pertaining to Ms. Kong’s disappearance and USPP’s assistance of the MWAA
police. For example, during a telephone conversation with the MWAA police on Sunday, May 5,
2013, a USPP communications sergeant seemed to be unaware of the USPP assistance being
provided in this case and requested a description of Ms. Kong and details on her disappearance.
In another instance, a different USPP communications sergeant contacted the MWAA police
asking to speak to Victoria Kong about a missing-person case. It was apparent from the
conversation that the sergeant knew that a woman was missing but did not know that Ms. Kong
was the missing woman.




                                                                                                7
USPP Missing-Person Policy Does Not Clearly Define USPP’s Responsibilities When Assisting
Another Law Enforcement Agency

USPP General Order 2220, dated September 30, 1999, and signed by USPP’s chief of police at
that time, is the current USPP policy that establishes guidelines for conducting searches for
missing persons and for recording and investigating missing-person complaints. The General
Order provides specific, detailed requirements only in cases where USPP has primary
jurisdiction for investigating a report of a missing person. When USPP does not have primary
jurisdiction but instead has received a request for assistance from another agency, the General
Order merely states: “The shift commander shall be notified and shall determine if a search shall
be conducted and, if so, at what location and to what extent.”

                                      TIMELINE OF EVENTS

Date             Time                   Event
Fri., May 3      4:00 p.m.              Victoria Kong exits her plane through Gate 28 at DCA.
                 4:00 – 6:33 p.m.       Security cameras capture Ms. Kong wandering through the
                                        terminal and baggage claim area and then leaving the airport.
                                        Later footage shows her walking alone on the Mt. Vernon
                                        Trail near George Washington Parkway, heading north
                                        toward Gravelly Point.
                 Approx. 6:00 p.m.      After Ms. Kong’s family cannot find her at a prearranged
                                        meeting spot, they enlist the help of MWAA police staff to
                                        search the airport for her.
                 Approx. 11:00          MWAA initiates an official missing-person report.
                 p.m.
Sat., May 4      2:18 a.m.              MWAA contacts USPP and provides basic information about
                                        the situation.
                 2:24 a.m.              USPP puts out a “Be on the Lookout” to its patrols for Ms.
                                        Kong.
                 3:42 a.m.              MWAA contacts USPP and informs the communications
                                        sergeant on duty that Ms. Kong was captured on video
                                        walking toward Gravelly Point at approximately 6:30 p.m.
                                        May 3.
                 3:43 a.m.              The communications sergeant briefs the on-duty USPP
                                        patrol supervisor, who tells the communications sergeant he
                                        will have USPP patrols check out the area.
                 Approx. 3:45 a.m.      Two USPP patrols are dispatched to search the Gravelly
                                        Point area.
                 3:45 and 4:04 a.m.     The communications sergeant briefs the shift commander on
                                        duty about the incident. The shift commander makes several
                                        comments about Ms. Kong and the incident to the
                                        communications sergeant.
                 6:00 a.m. – Noon       USPP patrols conduct some searches of Gravelly Point and
                                        other areas during regular patrols.
                 Afternoon and          MWAA continues search for Ms. Kong with other agencies
                 evening                assisting.



                                                                                                    8
Date            Time                 Event
Sun., May 5     Morning              MWAA and assisting agencies continue to search.
                Afternoon and        Fairfax County police dogs track Ms. Kong’s scent from
                evening              DCA to Roosevelt Island. MWAA SWAT and search-and-
                                     rescue teams search the island. USPP officers are on scene
                                     providing access security and other assistance as requested.
                Approx. 10:00 –      A USPP helicopter conducts an aerial search of Roosevelt
                10:40 p.m.           Island.
Mon., May 6     6:00 a.m. – 1:40     USPP continues assisting MWAA at Roosevelt Island during
                p.m.                 ongoing search-and-rescue efforts. Other search-and-rescue
                                     teams search Gravelly Point and other areas.
                Approx. 1:40 p.m.    Ms. Kong’s body is found on Gravelly Point.

                                          SUBJECT

U.S. Park Police shift commander.

                                       DISPOSITION

We provided this report to the Director of NPS for any action he deemed appropriate. In its
response to the report, NPS informed us that administrative action has been taken against the
shift commander, and new policies have been implemented to address the issues we raised (see
Attachment 1).




                                                                                                9
                                                                                    Attachment 1


                    United States Department of the Interior
                                      NATIONAL PARK SERVICE
                                           1849 C Street, N.W.
                                         Washington, DC 20240
IN REPLY REFER TO
2400                                        OCT 2 1 2014

Memorandum

To:             Assistant Inspector General for Investigation

From:           Deputy Director, Operations   -P4'1 '1           0 ·~
Subject:        NPS Response to Report oflnvestigation - Case No. PI-PI-13-0405-1

The National Park Service has reviewed the completed Office of Inspector General (OIG)
investigation regarding this matter and has taken several actions to address the report's
recommendations. The identified misconduct of United States Park Police (USPP) personnel
was investigated and disciplinary/administrative action was initiated. While the OIG found that
the USPP complied with its policies and procedures regarding missing persons, a comprehensive
internal review resulted in the publication of updated polices regarding standards of conduct,
missing persons, and the dissemination of information. I am confident that these actions will
enhance the efficiency and effectiveness of the United States Park Police.
